E-Mail Address: 775 H Street, N.E.
Est Joe briefs@wilsonepes.com Washington, D.C. 20002

WSO TG

Web Site: Tel (202) 789-0096
awa www.wilsonepes.com Fax (202) 842-4896
No. 20-1113

AMERICAN HOSPITAL ASSOCIATION, ET AL.,

Petitioners,
v.

NORRIS COCHRAN, IN HIS OFFICIAL CAPACITY AS
ACTING SECRETARY OF HEALTH AND HUMAN SERVICES,

Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on February 23, 2021, three (3) copies of the BRIEF OF AMICI
CURIAE 33 STATE AND REGIONAL HOSPITAL ASSOCIATIONS IN SUPPORT OF
PETITIONERS in the above-captioned case were served, as required by U.S. Supreme Court Rule
29.5(c), on the following:

CATHERINE EMILY STETSON ELIZABETH B. PRELOGAR

HOGAN LOVELLS US LLP Acting Solicitor General

555 13th Street, N.W. UNITED STATES DEPARTMENT OF JUSTICE
Washington, DC 20004-1109 950 Pennsylvania Avenue, NW

(202) 637-5491 Washington, DC 20530-0001

Counsel for Petitioners (202) 514-2217
American Hospital Association, et al. Counsel for Respondent
Norris Cochran, in his official
capacity as Acting Secretary of Health
and Human Services

The following email addresses have also been served electronically:

cate.stetson@hoganlovells.com
SupremeCtBriefs@USDOJ.gov
chadgolder@gmail.com

ROBYN DORSEY WILLIS
‘WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002
(202) 789-0096

Sworn to and subscribed before me this 23rd day of February 2021.

 
 
   

COLIN CASEY HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
